       UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




    NLRB Technology Initiatives as
    Related to the Rehabilitation Act


                   OIG-AMR-49-05-06




                                      September 2005
INSPECTOR GENERAL




       NATIONAL LABOR RELATIONS BOARD
                           WASHINGTON, DC 20570

September 26, 2005

I hereby submit a review of National Labor Relations Board (NLRB) Technology
Initiatives as Related to the Rehabilitation Act, Report No. OIG-AMR-49-05-06.
This review was conducted to evaluate the Agency’s compliance with sections
501 and 508 of the Rehabilitation Act.

This year is the 15th anniversary of the Americans with Disabilities Act (ADA).
At an anniversary celebration, the Secretary for the Department of Homeland
Security commented, "In the 15 years since the law was passed and
implemented, the ADA has enabled society to benefit from the skills and talents
of individuals with disabilities, and has led to fuller, more productive lives for
all Americans." Although the Federal government is not included in the ADA,
the Rehabilitation Act was amended in 1992 to apply the same standards;
thereby providing the same benefits to the Federal workforce.

Section 501 of the Rehabilitation Act prohibits employment discrimination
against individuals with disabilities in the Federal sector. Administrative Policy
Circular 03-04, Reasonable Accommodation Procedures, states that it is the
Agency’s policy to provide reasonable accommodations to qualified disabled
employees or applicants, unless to do so would cause an undue hardship to
the Agency.

NLRB provides reasonable accommodations consisting of assistive technology
devices and services through the Department of Defense Computer/Electronic
Accommodations Program (CAP) at no cost to the Agency. During FY 2004,
eight employees were provided reasonable accommodations which included six
pieces of assistive technology. In addition, CAP provided training to use a
screen reader and the evaluation of a workstation. These items would have
cost approximately $4,350 had they been purchased by the Agency.

No electronic and information technology reasonable accommodation requests
were denied. The Human Resources Branch (HRB) received nine reasonable
accommodation requests related to electronic and information technology in FY
2004. Eight of these requests were filled. One request was not processed
because the employee failed to provide the necessary supporting medical
documentation.

One Help Desk employee handles special needs software, hardware, and CAP.
The individuals requesting reasonable accommodations that we interviewed
provided positive feedback on the assistance provided by the Help Desk.

Section 508 of the Rehabilitation Act requires that Federal agencies provide
employees with disabilities access to and use of information and data that is
comparable to that provided to Federal employees without disabilities. Section
508 also requires that individuals with disabilities, who are members of the
public seeking information or services from a Federal agency, have access to
and use of information and data that is comparable to that provided to
members of the public without disabilities. An exception to these requirements
exists if they would impose an undue burden on the agency.

The Agency's Internet and Intranet pages were generally in compliance with
section 508 requirements. Some pages included data tables that did not
identify row and column headers appropriately, and some pages were not
readable by assistive technology. The most common deficiency was that many
Internet pages did not meet the requirement to provide users a method to skip
repetitive navigation links.

An exit conference was held on August 8, 2005 with the Chief Information
Officer (CIO) and representatives of HRB and the Procurement and Facilities
Branch. A draft report was sent to the CIO on August 10, 2005. We
recommended that the CIO work with the Deputy Executive Secretary to
implement two recommendations. These recommendations were to correct all
data tables to allow them to be read accurately by a screen reader and to add
skip repetitive navigation links to applicable Internet and Intranet pages.

The CIO had no comment on the findings and h a s already completed corrective
actions for the two recommendations made in the draft report. Therefore, we
have no recommendations in the final report. The CIO's comments are
presented in their entirety as a n appendix to this report.




                                    Assistant Inspector General for Audits
                                       TABLE OF CONTENTS



BACKGROUND ......................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY ........................................2

FINDINGS ..............................................................................................3

INTRANET AND INTERNET COMPLIANCE..............................................3
  Data Tables .........................................................................................3
  Skip Navigation Links..........................................................................3
  Screen Reader .....................................................................................4
REASONABLE ACCOMMODATION REQUESTS ......................................4

HELP DESK ...........................................................................................5

PROCUREMENT ....................................................................................5

ATTACHMENT – Requirements for Web-based Intranet and
             Internet Information and Applications..........................7

APPENDIX
        Memorandum from the Chief Information Officer,
        Draft Report - "NLRB Technology Initiatives as Related to the
        Rehabilitation Act," (OIG-AMR-49), dated September 9, 2005
                                 BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. The Fiscal Year (FY) 2005 appropriation authorizes 1,875 full-time
equivalents that are located at Headquarters, 51 field offices throughout the
country, and 3 satellite offices for Administrative Law Judges. NLRB received
an appropriation of $251,875,000 for FY 2005, less an across-the-board
reduction of .83 percent, leaving a net spending ceiling of $249,784,438.

Section 501 of the Rehabilitation Act prohibits employment discrimination
against individuals with disabilities in the Federal sector. Administrative Policy
Circular 03-04, Reasonable Accommodation Procedures, states that it is the
Agency’s policy to provide reasonable accommodations to qualified disabled
employees or applicants, unless to do so would cause an undue hardship to
the Agency. A reasonable accommodation is a change in the working
environment or in the application process that would enable a person with a
disability to enjoy equal employment opportunities.

NLRB provides reasonable accommodations consisting of assistive technology
devices and services through the Department of Defense Computer/Electronic
Accommodations Program (CAP) at no cost to the Agency. During FY 2004,
eight employees were provided reasonable accommodations which included six
pieces of assistive technology such as voice recognition software for employees
who cannot type, magnification and reading software for employees with
impaired vision, a mouse, and a glare screen. In addition, CAP provided
training to use a screen reader and the evaluation of a workstation. These
items would have cost approximately $4,350 had they been purchased by the
Agency.

Section 508 of the Rehabilitation Act requires that Federal agencies provide
employees with disabilities access to and use of information and data that is
comparable to that provided to Federal employees who are not individuals with
disabilities, unless an undue burden would be imposed on the agency. Section
508 also requires that individuals with disabilities, who are members of the
public seeking information or services from a Federal agency, have access to
and use of information and data that is comparable to that provided to the
public who are not individuals with disabilities, unless an undue burden would
be imposed on the agency.




                                        1
                OBJECTIVES, SCOPE, AND METHODOLOGY

This review was conducted to evaluate the Agency’s compliance with sections
501 and 508 of the Rehabilitation Act.

We reviewed the Rehabilitation Act, as amended, and implementing regulations
to determine the requirements for Federal agencies to make electronic and
information technology accessible to people with disabilities, including
employees and members of the public. We reviewed Agency policies and
procedures including Administrative Policy Circular (APC) 03-04, Reasonable
Accommodation Procedures, dated August 25, 2003.

We interviewed employees in the Office of the Chief Information Officer (OCIO),
Human Resources Branch (HRB), and Procurement and Facilities Branch (PFB)
to determine whether processes and procedures used by the Agency to procure
and develop information technology are in accordance with section 508 of the
Rehabilitation Act.

We interviewed employees in the OCIO and the Office of Executive Secretary,
primarily in the Editorial Branch, to identify Agency policies and procedures
that ensure compliance with section 508 requirements for the Agency’s Internet
and Intranet. We tested 200 Internet pages using freeware and manual
verification to determine whether they were compliant. In addition, we
determined whether 57 of these Internet pages could be read by a screen
reader. We tested 50 Intranet pages using manual verification and a screen
reader to determine whether they were section 508 compliant. Three of the 50
Intranet pages were not tested because they were incorrectly linked. We
interviewed the Acting Director of Information and the Agency’s Internet
contractor to review errors identified and determine the cause of these errors.

We interviewed employees in HRB to evaluate the Agency’s reasonable
accommodation procedures regarding electronic and information technology.
We reviewed the nine electronic and information technology reasonable
accommodation requests processed in FY 2004 to determine whether they were
compliant with applicable procedures and were processed in a timely manner.

We interviewed Help Desk contract employees and three Agency employees
with special needs to determine whether the Agency’s help desk function can
effectively assist employees with disabilities.

This audit was performed in accordance with generally accepted government
auditing standards during the period of June 2005 through September 2005.
We conducted this audit at NLRB Headquarters in Washington, DC and Region
5 – Baltimore, Maryland.



                                      2
                                  FINDINGS

The Agency mostly met the requirements of the Rehabilitation Act to provide
access to electronic information to employees and the public. Agency Internet
and Intranet pages generally met requirements, employees received assistive
technology solutions that provided reasonable accommodations to perform
their jobs, and the Help Desk was responsive to employees with special needs.


INTRANET AND INTERNET COMPLIANCE

The Agency's Internet and Intranet pages were generally in compliance with
section 508 requirements. Detailed section 508 requirements pertaining to
Internet and Intranet sites appear as an attachment to this report. Some pages
included data tables that did not identify row and column headers
appropriately, and some pages were not readable by assistive technology. The
most common deficiency was that many Internet pages did not provide users a
method to skip repetitive navigation links.

Data Tables

Federal regulations state that row and column headers shall be identified for
data tables and markup shall be used to associate data cells and header cells
for data tables that have two or more logical levels of row or column headers.
Markup identifies items so that users of screen readers can navigate through
data tables one cell at a time, and they will hear the column and row headers
spoken to them.

Thirty-eight of the 200 Internet pages tested had tables that required the
proper identification of row and column headers. Sixteen of these 38 did not
identify row and column headers appropriately. Thirty-one pages had tables
with two or more levels of row or column headers that required a markup to
associate data and header cells. Nine of these 31 did not use markup to
associate data cells and header cells correctly.

The contractor stated that a review of data tables was conducted on February
1, 2005, and that deficiencies were found. These deficiencies were reviewed
and incorrectly deemed to be invalid or already corrected.

Skip Navigation Links

Federal regulations require that a method shall be provided that permits users
to skip repetitive navigation links. Sighted people can look at any point on a
Web site they wish when it's convenient for them. Those using assistive



                                       3
technology, however, must listen through the same navigation options with
each new page they enter.

A majority of the Internet pages tested did not comply with the skip navigation
requirement. Of the 200 Internet pages tested, 179 pages were required to
allow users to skip repetitive navigation links. Of those, 174 failed this
requirement. Of the 50 Intranet pages tested, 10 did not allow users to skip
repetitive navigation links. The CIO and the Editorial Branch Chief attributed
missing skip navigation links on the Internet and Intranet, respectively, to the
accidental disabling or deletion of code when updating other files.

Screen Reader

Federal regulations require providing a text equivalent for every non-text
element. This is so that people with vision impairments could use products
such as screen readers to translate what's on a computer screen into
automated audible output and refreshable Braille displays to access computer-
based information.

Fifty of the 57 Internet pages and all of the 50 Intranet pages tested were read
by the screen reader. Seven of the 57 Internet pages tested experienced some
difficulty when being read or could not be read at all by the screen reader. In
addition, we noted some difficulty with reading graphics for one document that
was in Portable Document Format (PDF). This is a format from Adobe that
enables a document to be distributed on different systems while preserving the
layout. Specifically, the screen reader did not provide an accurate description
of charts included in the report and in some cases the screen reader completely
skipped the chart altogether.

The Editorial Branch Chief stated that Adobe is limited in what it can do and
that she has done extensive research on the topic without finding a solution.
In addition, she mentioned that the only other option is a HTML document.
She noted that a PDF document is used because a document retains its look
which is important for legal citations. The Editorial Branch Chief noted that
PDF is a recognized format to use on the Web and is used throughout
government.


REASONABLE ACCOMMODATION REQUESTS

APC 03-04 outlines the procedures for all reasonable accommodation requests.
Since requests for electronic and information technology equipment are
handled through the CAP program, only two of the five steps in the identified
process apply to CAP requests. The first step involves submitting a request to




                                       4
the Branch Chief or Office Head with a copy to the first line supervisor,
accompanied with appropriate medical documentation. The second required
step is to forward the request to the Selective Placement Coordinator in HRB.

CAP Request Forms are completed by either the requesting employee or HRB
and submitted online. HRB monitors requests and follows up when necessary.

No electronic and information technology reasonable accommodation requests
were denied. HRB received nine reasonable accommodation requests related to
electronic and information technology in FY 2004. Eight of these requests were
filled. One request was not processed because the employee failed to provide
the necessary supporting medical documentation.

Seven requests took an average of 51 days to process from the date of the
initial request to approval by CAP. We were unable to determine the length of
time to process one request because documentation regarding the date of
approval by CAP was not maintained. One request for an ergonomic mouse
took 134 days to process. HRB stated that this delay might have been caused
by a vacancy in the position that monitors these requests.


HELP DESK

The Help Desk contract requires the contractor to install, configure, test, and
maintain all hardware and software. This includes providing technical support
for all hardware and software calls received.

One Help Desk employee is devoted to special needs software, hardware, and
CAP. The individuals interviewed provided positive feedback on the assistance
provided by the Help Desk.


PROCUREMENT

Federal regulations state that unless an exception applies, when acquiring
commercial items, an agency must comply with those accessibility standards
that can be met with supplies or services that are available in the commercial
marketplace. Federal regulations require documentation of nonavailability of
section 508 compliant products and services, but not that these procurements
met applicable requirements.

The General Services Administration offers a Buy Accessible Web page that was
created primarily to ease market research for Federal agencies and to help
Federal workers conform to section 508 by allowing them to easily find and buy



                                       5
the most accessible information technology products and services. Although
encouraged to participate in the Buy Accessible program, vendors are not
required to do so. If they choose to participate, vendors can download a
product accessibility template developed by the Information Technology
Industry Council. The template will be posted on vendor Web pages and
subsequently will be linked to the Buy Accessible database. Government
purchasers who visit the Buy Accessible Web site can then search the database
by specific service or product to complete their market research and view the
links provided by participating vendors.

OCIO does not have procedures in place to ensure section 508 compliance of
products and services purchased. These procedures would include
determining whether the procurement was subject to section 508 requirements
and identifying available products and services that meet the requirement.




                                     6
                                                                     ATTACHMENT

              Requirements for Web-based Intranet and Internet
                       Information and Applications

Requirements related to deficiencies identified appear in bold print.

                  Requirement                               Description
(a)   A text equivalent for every non-          A text equivalent means adding
      text element shall be provided            words to represent the purpose of
      (e.g., via "alt", "longdesc", or in       a non-text element. This provision
      element content).                         requires that when an image
                                                indicates a navigational action
                                                such as "move to the next screen"
                                                or "go back to the top of the
                                                page," the image must be
                                                accompanied by actual text that
                                                states the purpose of the image.
                                                This provision also requires that
                                                when an image is used to
                                                represent page content, the
                                                image must have a text
                                                description accompanying it that
                                                explains the meaning of the
                                                image.

(b)   Equivalent alternatives for any           This provision requires that when an
      multimedia presentation shall be          audio portion of a multimedia
      synchronized with the                     production is captioned, as required
      presentation.                             in provision (a), the captioning must
                                                be synchronized with the audio.
                                                Synchronized captioning would be
                                                required so someone reading the
                                                captions could also watch the speaker
                                                and associate relevant body language
                                                with the speech.




                                            7
                 Requirement                                Description

(c)   Web pages shall be designed so           This requires that some other method
      that all information conveyed with       of identification, such as text labels,
      color is also available without color,   must be combined with the use of
      for example from context or              color. When colors are used as the
      markup.                                  sole method for identifying screen
                                               elements or controls, persons who are
                                               color blind as well as those people
                                               who are blind or have low vision may
                                               find the Web page unusable.

(d)   Documents shall be organized so          Style sheets can enable users to
      they are readable without requiring      define specific viewing preferences to
      an associated style sheet.               accommodate their disability. For
                                               instance, users with low vision may
                                               create their own style sheet so that,
                                               regardless of what Web pages they
                                               visit, all text is displayed in extra
                                               large font. If designers set up their
                                               pages to override user-defined style
                                               sheets, people with disabilities may
                                               not be able to use those pages.

(e)   Redundant text links shall be            When a Web page uses a server-side
      provided for each active region of a     image map to present the user with a
      server-side image map.                   selection of options, browsers cannot
                                               indicate to the user the URL that will
                                               be followed when a region of the map
                                               is activated. Therefore, the redundant
                                               text link is necessary to provide
                                               access to the page for anyone not
                                               able to see or accurately click on the
                                               map.

(f)   Client-side image maps shall be          Unlike server-side image maps, the
      provided instead of server-side          client-side image map allows an
      image maps except where the              author to assign text to each image
      regions cannot be defined with an        map hot spots. This feature means
      available geometric shape.               that someone using a screen reader
                                               can easily identify and activate
                                               regions of the map.




                                          8
                 Requirement                         Description
(g)   Row and column headers shall be   These provisions permit the use
      identified for data tables.       of tables, but require that the
                                        tables be coded according to the
(h)   Markup shall be used to associate rules of the markup language
      data cells and header cells for   being used for creating tables.
      data tables that have two or      Large tables of data can be
      more logical levels of row or     difficult to interpret if a person
      column headers.                   is using a non-visual means of
                                        accessing the Web.

(i)   Frames shall be titled with text that Frames provide a means of visually
      facilitates frame identification and  dividing the computer screen into
      navigation.                           distinct areas that can be separately
                                            rewritten. Unfortunately, frames can
                                            also present difficulties for users with
                                            disabilities when those frames are
                                            not easily identifiable to assistive
                                            technology.

(j)   Pages shall be designed to avoid       This provision is necessary because
      causing the screen to flicker with a   some individuals with photosensitive
      frequency greater than 2 Hz and        epilepsy can have a seizure triggered
      lower than 55 Hz.                      by displays that flicker, flash, or
                                             blink, particularly if the flash has a
                                             high intensity and is within certain
                                             frequency ranges.

(k)   A text-only page, with equivalent      Text-only pages must contain
      information or functionality, shall    equivalent information or functionality
      be provided to make a Web site         as the primary pages. Also, the text-
      comply with the provisions of these    only page shall be updated whenever
      standards, when compliance             the primary page changes.
      cannot be accomplished in any
      other way. The content of the text-
      only page shall be updated
      whenever the primary page
      changes.




                                         9
                  Requirement                              Description
(l)   When pages utilize scripting           Web page authors have a
      languages to display content, or to    responsibility to provide script
      create interface elements, the         information in a fashion that can be
      information provided by the script     read by assistive technology. When
      shall be identified with functional    authors do not put functional text with
      text that can be read by assistive     a script, a screen reader will often
      technology.                            read the content of the script itself in
                                             a meaningless jumble of numbers
                                             and letters.

    When a Web page requires that an         This provision requires that Web
(m) applet, plug-in or other application     pages that provide content such as
    be present on the client system to       Real Audio or PDF (Adobe Acrobat's
    interpret page content, the page         Portable Document Format) files also
    must provide a link to a plug-in or      provide a link to a plug-in that will
    applet that complies with                meet the software provisions. It is
    ¤1194.21(a) through (l).                 very common for a Web page to
                                             provide links to needed plug-ins. It
                                             places a responsibility on the Web
                                             page author to know that a compliant
                                             application exists, before requiring a
                                             plug-in.

(n)   When electronic forms are designed     Currently, the interaction between
      to be completed on-line, the form      form controls and screen readers can
      shall allow people using assistive     be unpredictable, depending upon the
      technology to access the               design of the page containing these
      information, field elements, and       controls. HTML forms pose
      functionality required for             accessibility problems when Web
      completion and submission of the       developers separate a form element
      form, including all directions and     from its associated label or title.
      cues.




                                        10
                Requirement                           Description
(o)   A method shall be provided that     This provision provides a method
      permits users to skip repetitive    to facilitate the easy tracking of
      navigation links.                   page content that provides users
                                          of assistive technology the option
                                          to skip repetitive navigation
                                          links. Web developers routinely
                                          place a host of routine
                                          navigational links at a standard
                                          location often across the top,
                                          bottom, or side of a page. If a
                                          nondisabled user returns to a
                                          Web page and knows that he or
                                          she wants to view the contents of
                                          that particular page instead of
                                          selecting a navigation link to go
                                          to another page, he or she may
                                          simply look past the links and
                                          begin reading wherever the
                                          desired text is located.

(p) When a timed response is required,    Web pages can be designed with
    the user shall be alerted and given   scripts so that the Web page
    sufficient time to indicate more      disappears or "expires" if a response
    time is required.                     is not received within a specified
                                          amount of time. Many forms, when
                                          they "time out" automatically, also
                                          delete whatever data has been
                                          entered. The result is that someone
                                          with a disability who is slow to enter
                                          data cannot complete the form. For
                                          this reason, when a timed response is
                                          required, the user shall be alerted via
                                          a prompt and given sufficient time to
                                          indicate whether additional time is
                                          needed.




                                     11
     APPENDIX




12
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of the Chief Information Officer

Memorandum
September 9,2005

To:      Jane E. Altenhofen
         Inspector General

From:    Richard D. Westfield
         Chief Information Officer

Subject: Draft Report "NLRB Technology Initiatives as Related to the Rehabilitation
Act" (OIG-AMR-49)

         Your draft report, dated August 10, 2005, states that while the Agency's public
Web site generally was in compliance with Section 508 requirements, some pages
included data tables that did not identify row and column headers appropriately, and
some pages were not readable by assistive technology. Our contract with AT&T to host
the site includes, among other things, a requirement to monitor Section 508 compliance
using industry-accepted tools and practices. Paul Baitinger of AT&T informed us that
the common deficiency identified in your report, namely, not providing users with a
method to skip repetitive navigation links, was due to a temporary technical difficulty at
their end.

         Prior to the IG review, according to Mr. Baitinger, AT&T had performed its semi-
annual Section 508 compliance scan on February 1,2005. At that time, the code for skip
navigation links was present. Subsequently, AT&T inadvertently disabled the code while
updating other files. It corrected the problem after being notified of the anomaly, which
it would have discovered with the next compliance scan. In addition, AT&T has worked
with employees in the Executive Secretary's Office and the Division of Information to
correct defects related to the data tables and with the pages which experienced some
difficulty when being read or could not be read at all by the screen reader. We are
satisfied that the issues presented in your report regarding the nlrb.gov pages have been
corrected and that the Agency is in compliance with Section 508.



cc: The Board
    General Counsel
